Report No. D-2009-105               September 22, 2009




   The U.S. Army Corps of Engineers Temporary Roofing
       and Temporary Power Response to the 2008
                   Hurricane Season
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
ACI                           Advance Contracting Initiative
APP                           Accident Prevention Plan
FEMA                          Federal Emergency Management Agency
IG                            Inspector General
NRF                           National Response Framework
QA                            Quality Assurance
RoE                           Right of Entry
USACE                         U.S. Army Corps of Engineers
                                 INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                   400 ARMY NAVY DRIVE
                              ARLINGTON, VIRGINIA 22202-4704



                                                                      September 22, 2009

MEMORANDUM FOR COMMANDER AND CHIEF OF ENGINEERS, U.S. ARMY
                 CORPS OF ENGINEERS
              AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: The U.S. Army Corps of Engineers Temporary Roofing and Temporary
         Power Response to the 2008 Hurricane Season (Report No. D-2009-105)

We are providing this report for your information and use. We performed this audit
based on the commitment of the President's Council on Integrity and Efficiency (now
known as the Council ofInspectors General ofIntegrity and Efficiency) to take a
proactive approach in reviewing disaster relief efforts. We considered management
comments from the U.S. Army Corps of Engineers on a draft of the report in preparing
the final report.

Comments on the draft of this report conformed to the requirements of DOD Directive
7650.3 and left no unresolved issues. Therefore, we do not require any additional
comments.

We appreciate the courtesies extended to the staff. Questions should be directed to me at
(703) 604-9201.




                                            Richard B. Jolliffe
                                            Assistant Inspector General
                                            Acquisition and Contract Management
Report No. D-2009-105 (Project No. D2009-D000CG-0027.000)                  September 22, 2009


               Results in Brief: The U.S. Army Corps of
               Engineers Temporary Roofing and
               Temporary Power Response to the 2008
               Hurricane Season
                                                        The contractor’s failure to submit an acceptable
What We Did                                             accident prevention plan for approval before
We reviewed the U.S. Army Corps of                      performing the work or adequately
Engineers’ (USACE) response to the 2008                 implementing the plan increased the probability
hurricane season. Our review was divided into           of injuries and liability to the Government.
two areas: the temporary roofing mission’s              Also, contracting officials without expertise in
quality assurance process and safety                    the administration of the 2008 temporary power
requirements, and the current procedures for            mission may hesitate to take action in the future
administering the temporary power mission.              or incorrectly perform functions causing delays
                                                        and inadequate documentation.
What We Found
                                                        What We Recommend
USACE internal controls over quality assurance
and safety requirements for the temporary               We recommend that USACE:
roofing mission and the contract administration            Adequately train all personnel executing
procedures for the temporary power mission                    the quality assurance responsibilities for
were ineffective. USACE officials have made                   the temporary roofing mission.
improvements to the temporary roofing mission              Require temporary roofing contractors to
since Hurricane Katrina. However, USACE                       have an accepted and properly
officials continue to experience problems with                implemented accident prevention plan
the $36.7 million temporary roofing and                       before they perform the temporary
$8.7 million temporary power missions for the                 roofing mission, and to comply with the
2008 hurricane season for the following reasons.              safety requirements.
USACE officials did not adequately train all               Instruct districts in charge of the
quality assurance inspectors for the temporary                emergency power contracts to develop
roofing mission. One contractor performed the                 and retain adequate contract
temporary roofing mission without an approved                 documentation.
accident prevention plan, while other                      Consider consolidating the award and
contractors performed the mission without fully               administration of the temporary power
implemented accident prevention plans.                        mission’s Advance Contracting Initiative
USACE districts did not comply with the                       contract at two regional or district
requirements to develop and retain adequate                   locations.
contract documentation for the temporary power
mission.                                                Management Comments and
                                                        Our Response
USACE quality assurance inspectors were not,
in some cases, adequately trained or qualified to       USACE agreed with all four recommendations.
accurately estimate the time or materials to            The comments were responsive and no
complete the repair work, potentially adding            additional comments are required. Please see
cost to the overall temporary roofing mission.          the recommendations table on the back of this
                                                        page.


                                                    i
Report No. D-2009-105 (Project No. D2009-D000CG-0027.000)        September 22, 2009

Recommendations Table
Management                      Recommendations             No Additional Comments
                                Requiring Comment           Required
Commander, U.S. Army Corps of                               1, 2, 3, 4
Engineers




                                          ii
Table of Contents

Introduction                                                    1

      Objectives                                               1
      Background                                               1
      Review of Internal Controls                              5

Finding. Temporary Roofing and Temporary Power Missions         6

      Recommendations, Management Comments, and Our Response   13

Appendices

      A. Scope and Methodology                                 15
      B. Prior Coverage                                        18

Management Comments

      U.S. Army Corps of Engineers Comments                    22
Introduction
Objectives
We reviewed the U.S. Army Corps of Engineers’ (USACE) response to the
2008 hurricane season. Our review was divided into two areas. Specifically for this
project, we reviewed the temporary roofing mission’s quality assurance (QA) process and
safety requirements, and the current procedures for administering the temporary power
mission. See Appendix A for a discussion of scope and methodology and Appendix B
for prior coverage related to the objective.

Background
The audit is based on the commitment of the President’s Council on Integrity and
Efficiency (now known as the Council of Inspectors General on Integrity and Efficiency)
to take a proactive approach in reviewing disaster relief efforts. In addition, the DOD
Inspector General (IG) reviewed the award and administration of contracts for ice and
water for the 2008 hurricane season. We issued Report No. D-2009-103, "The U.S.
Army Corps of Engineers Ice and Water Response to the 2008 Hurricane Season," on
September 18, 2009 to address the USACE ice and water missions.

Emergency Guidance
The “Robert T. Stafford Disaster Relief and Emergency Assistance Act” (Stafford Act)
and the 2008 National Response Framework (NRF) provide guidance for Government
officials to use during emergency situations. The Stafford Act authorizes the President to
provide financial and other forms of assistance to support response, recovery, and
mitigation efforts following declared disasters. The 2008 NRF provides structure for
effective and efficient incident management among the Federal, State, and local
emergency management agencies after a disaster. The 2008 NRF authorizes the Federal
Emergency Management Agency (FEMA), part of the Department of Homeland Security,
to issue mission assignments. Under the Stafford Act, USACE supports FEMA in
carrying out the NRF, which calls on Federal departments and agencies to provide
coordinated disaster relief and recovery operations to assist local agencies when local
resources and capabilities are exceeded. USACE is the primary coordinator and agency
responsible for one of the NRF functions, Emergency Support Function #3, “Public
Works and Engineering Annex.” USACE is the supporting agency responsible for
coordinating activities involved in emergency generator installation under Emergency
Support Function #12, “Energy Annex.” In addition, USACE assists as a supporting
agency in fulfilling mass care requirements, including temporary roofing, under
Emergency Support Function #6, “Mass Care, Emergency Assistance, Housing, and
Human Services Annex.”

Advance Contracting Initiative Contracts
To expedite a response to emergencies and disasters, USACE developed and
implemented Advance Contracting Initiative (ACI) contracts for relief efforts. ACI
contracts are awarded prior to disasters, and allow USACE contracting officials to
                                            1
respond when a disaster occurs by placing delivery orders at a negotiated rate for supplies
and services. Each of the awarded contracts is specific to a State, geographical region, or
territory of the United States, and contractors can begin mobilization within 24 hours of
notification. Agencies meet actual needs by placing delivery orders against the ACI
contracts.

Temporary Roofing Mission
USACE Mobile District, Mobile, Alabama, contracting officials awarded ACI contracts
for the temporary roofing mission in 2006. The ACI contracts consisted of unrestricted,
8(a), Historically Underutilized Business Zones, and Service-Disabled Veteran contracts.
USACE district contracting officers can issue a task order under any ACI contract during
disasters. USACE St. Paul District, St. Paul, Minnesota, contracting officials issued task
orders under the ACI contracts for Hurricane Gustav at a cost of $16.3 million. USACE
Galveston District, Galveston, Texas, contracting officials stated that they issued task
orders under the ACI contracts for Hurricane Ike at a cost of $15.1 million. USACE
Galveston District officials stated that they also awarded two non-ACI contracts
following Hurricane Ike to a Service-Disabled Veteran and 8(a) contractor, and the
Galveston District office contracting officials issued task orders under the non-ACI
contracts for Hurricane Ike at a cost of $5.2 million.

The following table shows the temporary roofing contracts including the contract
number, the contractor, and associated costs according to USACE contracting officials
used in response to the 2008 hurricane season.

                             Temporary Roofing Contract Information
Hurricane       District      Contract     Contract        Contractor            Amount Paid
                              No.          Type
Gustav          St. Paul,     W91278-06-   8(a)            Crown Roofing         $9,761,735
                Minnesota     D-0028*                      Services, Inc.
Gustav          St. Paul,     W91278-06-   Historically    S&M and               $6,570,357
                Minnesota     D-0047*      Underutilized   Associates, Inc.
                                           Business Zone
Ike             Galveston,    W91278-06-   8(a)            Crown Roofing         $10,335,917
                Texas         D-0031*                      Services, Inc.
Ike             Galveston,    W91278-06-   Service-        ACME Roofing &        $4,799,496
                Texas         D-0056*      Disabled        Sheet Metal Co.,
                                           Veteran         Inc./Industrial
                                                           Technical Services,
                                                           LLC Joint Venture.
Ike             Galveston,    W912HY-      Service-        All American          $3,674,779
                Texas         09-D-0002    Disabled        Brothers Company,
                                           Veteran         LLC
Ike             Galveston,    W912HY-      8(a)            American Plastic,     $1,461,107
                Texas         09-D-0001                    Inc.
*ACI contract




                                                 2
USACE provides technical assistance to State and local governments and directs Federal
assistance in managing and contracting for the installation of blue plastic sheeting on
roofs of damaged homes following major disasters. FEMA arranges for the procurement
and shipment of sheeting and other supplies as needed to designated staging areas, where
USACE accepts and manages the distribution of the materials. In major disasters, FEMA
validates eligibility and priority of State Government requests. USACE issues and
manages temporary roofing contracts to execute assigned missions and secures right of
entry (RoE) for each affected residence. Affected homeowners are required to complete
an RoE form, allowing the contractor to inspect the home for eligibility and for
installation. FEMA funds the temporary roofing mission through mission assignments.
Figure 1 is an example of a completed temporary roof installed by USACE contractor
personnel following a disaster.




       Source: U.S. Army Corps of Engineers

       Figure 1. Temporary Roof Installed in the Galveston, Texas, District
       Following Hurricane Ike

Temporary Power Mission
USACE Pittsburgh District, Pittsburgh, Pennsylvania, contracting officials awarded one
competitively bid ACI contract for the temporary power mission to IAP Worldwide
Services on December 1, 2002. The contract had a base period of 1 year with four 1-year
options, expiring November 30, 2007, when all options were exercised. USACE
contracting officers extended the services provided by the contract an additional 6 months
through May 31, 2008, in accordance with the contract terms. USACE Pittsburgh
District contracting officials further extended the contract services 5 months until the
replacement contract was awarded. USACE Pittsburgh District contracting officials
awarded three replacement contracts on October 27, 2008, covering three geographic
regions. IAP Worldwide Services received the award of the contracts for geographic area
I (W911WN-09-D-0001) and geographic area II (W911WN-09-D-0002). Kellogg,
                                              3
Brown, and Root Services, Inc. received the award for geographic area III (W911WN-09-
D-0003). USACE St. Paul District contracting officials stated that they issued task orders
under this ACI contract for temporary power following Hurricane Gustav in 2008,
totaling $6.6 million. USACE Galveston District contracting officials stated that they
issued task orders under the temporary power ACI contract following Hurricane Ike
totaling $2.1 million.

The NRF allows USACE, at FEMA’s direction, to provide local and State governments
assistance through management of an emergency power mission including procurement,
installation, and operation of generators following major disasters. Local governments’
roles and responsibilities are to identify and prioritize critical public facilities and
potential power requirements prior to a disaster. The State Governments’ responsibilities
are to validate, consolidate, and prioritize requests from the affected local governments.
FEMA validates eligibility and priority of State Government requests for major disasters,
and forwards the requests to USACE. USACE issues and manages emergency generator
contracts to execute the assigned mission, conducts preinstallation assessments or
validates existing assessments, conducts environmental assessments and remediation of
generator installation sites, and secures RoEs as needed. Figure 2 shows USACE
contractors during execution of the Hurricane Ike power mission. The contractors are
performing checks on the installed generators used during the mission to power a senior
citizen housing development.




         Source: U.S. Army Corps of Engineers

       Figure 2. Contractors Checking on an Installed Generator During
       Hurricane Ike




                                            4
Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. USACE internal controls over
the QA process and safety requirements for the temporary roofing mission and the
contract administration procedures for the temporary power mission were ineffective.
Implementing Recommendations 1, 2, and 3 will correct these internal control
weaknesses. We will provide a copy of this report to senior USACE officials responsible
for internal controls.




                                           5
Finding: Temporary Roofing and Temporary
Power Missions
USACE officials have made improvements and have continuously updated the
procedures for executing the temporary roofing mission since Hurricane Katrina.
However, during the 2008 hurricane season, USACE experienced problems with QA and
safety requirements for the $36.7 million temporary roofing mission, and with the
administration of the $8.7 million temporary power mission. Specifically, for the
2008 hurricane season:

      USACE did not adequately train all QA inspectors for the temporary roofing
       mission;
      USACE contractors performed the temporary roofing mission without approved
       or fully implemented accident prevention plans (APP); and
      USACE districts did not comply with the contract requirements to develop and
       retain adequate contract documentation for the temporary power mission.

As a result, some of the USACE QA inspectors lacked the training and qualifications to
accurately estimate time and materials needed to complete the repair work, potentially
adding cost to the overall temporary roofing mission. In addition, the contractors’ failure
to submit an acceptable APP for approval before performing the work or to adequately
implement the plans increased the probability of injuries and liability to the Government.
Also, contracting officials without expertise in the administration of the 2008 temporary
power mission may hesitate to take action in the future or incorrectly perform functions
causing delays and inadequate documentation.

Improvements to the Temporary Roofing Mission
USACE officials have made improvements to the temporary roofing mission in response
to previous DOD IG recommendations. However, further improvements are needed to
better execute this important disaster relief mission. DOD IG Report D-2008-037, “U.S.
Army Corps of Engineers Administration of Emergency Temporary Roofing Repair
Contracts,” December 20, 2007, determined that USACE had an insufficient number of
QA personnel because QA duties were performed by volunteers. In response to the
report, USACE contracting officials awarded contracts for administrative support at the
RoE collection sites and additional QA personnel for the 2008 hurricane season. The
USACE Disaster Guidebook, May 2008, emphasizes the need to minimize the use of QA
personnel for RoE collection to increase the number of QAs available for estimating and
verifying temporary roofs. Because of improvements, roofing contractors were able to
complete more roofs in less time than during Hurricane Rita. DOD IG also issued
Report D-2007-038, “The U.S. Army Corps of Engineers’ ‘Operation Blue Roof’ Project
in Response to Hurricane Katrina,” December 22, 2006, which determined that USACE
properly awarded and administered the contracts for temporary roofing repairs in
response to Hurricane Katrina. The temporary power mission was not reviewed during
previous hurricane seasons.

                                             6
Temporary Roofing and Power Issues Identified
USACE officials made improvements to the temporary roofing mission; however, several
areas of concern continue to exist in the temporary roofing mission as well as in the
temporary power mission. In some instances, USACE QA roofing inspectors were not
given adequate training before deployment to hurricane recovery efforts. USACE
officials stated that QA inspectors, in some cases, were USACE volunteers who lacked
the expertise to accurately estimate and verify the amount of materials needed for the
temporary roofing mission. Also, USACE temporary roofing contractors and their
subcontractors were operating without approved or fully implemented APPs. USACE
officials did not hold temporary roofing contractors accountable for not following safety
requirements in the APP. USACE officials administering the temporary power mission
contracts were unfamiliar with the ACI requirements and did not develop or retain all
necessary supporting documentation.

Training of Quality Assurance Personnel
During the 2008 hurricane season, USACE officials, in some cases, relied on QA
temporary roofing personnel who had limited training. Inadequately trained USACE QA
volunteers were used to inspect and verify the materials and workmanship of the
contractors performing the temporary roofing mission. Previous DOD IG recom-
mendations on USACE’s QA process suggested decreasing the number of QA personnel
and relying more on the contractors’ quality control personnel. USACE district
contracting officials disagreed, stating that relying more on contractor quality control
personnel would lead to more risk with fewer checks and balances. USACE contracting
officials also expressed concern that QA inspectors hired without architect and
engineering backgrounds are not sufficiently qualified to monitor contractors. USACE
officials are concerned with the QA process and are currently working to address the
issues for the 2009 temporary roofing ACI contracts.

Quality Assurance Personnel Training
USACE QA temporary roofing personnel, in some cases, were not adequately trained to
perform quality assurance inspections for the 2008 hurricane season. QA personnel’s
training consisted of an overview of FEMA disaster relief efforts and was not necessarily
directed at the specific duties of a temporary roofing QA inspector. Personnel deployed
during a disaster are allowed only a short time to review a CD-ROM and training manual
before executing the duties of a QA inspector for the temporary roofing mission. QA is
performed by the Government or authorized representatives to ensure that the
homeowner receives a temporary roof in accordance with the mission requirements. The
duties for QA personnel in accordance with mission requirements are to:

      represent USACE during temporary roofing missions,
      verify eligibility and initial estimates,
      inspect contract work for quality and safety, and
      verify actual quantities for payment and progress reporting.



                                            7
USACE officials stated that the insufficient training of some QA personnel for the
2008 temporary roofing mission resulted in inaccurate estimates of materials and in the
covering of roofs that were not eligible under FEMA regulations. In addition, USACE
officials stated that an insufficient number of qualified personnel were available during
the 2008 hurricane season to verify the roofing estimates and calculations of the
contractors. USACE officials should ensure that all temporary roofing QA personnel are
sufficiently trained and qualified before deployment for a disaster relief event.

USACE’s Planned Corrective Action for Quality Assurance Personnel
Training Issues

USACE officials are working to address deficiencies in the QA process by placing an
increased emphasis on hiring QA personnel with engineering backgrounds, defining and
rewriting QA job descriptions, and improving QA training.

USACE officials have prepared a list of engineering and administrative contractors for
USACE districts in hurricane zones. The list will aid USACE officials in identifying
qualified personnel available at the time of a disaster and ensure that qualified QAs are
on the ground at the start of the temporary roofing mission.

USACE officials have written job descriptions and requirements for both QAs and RoE
collectors. USACE officials have created leadership positions to improve
communications between more experienced QA personnel and lower-level QA
inspectors. In addition, USACE officials have created an RoE collection coordinator to
oversee the RoE collection sites. The job descriptions are expected to be included when
the 2009 temporary roofing mission standard operating procedures are finalized.

USACE resident engineers are currently working with the Readiness Support Center in
Mobile, Alabama, to update QA training. USACE QAs will now have online training
before deploying and on-the-job training after deploying to the disaster area. USACE’s
goal is to have a QA training specialist permanently assigned to each USACE district
with a temporary roofing response team to ensure QA training is consistent.

Approval and Implementation of Accident Prevention Plans
USACE officials did not ensure that contractors submitted an approved APP before
beginning work on the temporary roofing mission or that, after approval, the APPs were
properly implemented during the 2008 hurricane season. USACE officials reported
multiple recurring contractor safety violations during the 2008 USACE temporary
roofing mission. Workcrews did not:
    wear fall-protection equipment when required,
    correctly use fall-protection equipment,
    wear hard hats when required,
    have a ground spotter when required,




                                             8
      properly tie off their ladders, or
      have a fluent English-speaking crew member as required by the contract.

The USACE Safety and Health Requirements Manual, EM 385-1-1, September 15, 2008,
prescribes the safety requirements for all USACE activities and operations, and requires
contractors to submit an approved APP. Contractor personnel who may be exposed to
safety hazards must be trained by knowledgeable personnel in all protection equipment
use and safety hazard recognition.

USACE St. Paul District officials and USACE Galveston District officials stated that
contractors did not adequately implement an APP during the USACE response to
Hurricane Gustav and Hurricane Ike in 2008. As a result, USACE officials could not
ensure that all safety hazards and risks were minimized during the temporary roofing
mission.

Lack of Approved and Sufficiently Implemented Accident Prevention
Plans for the 2008 Hurricane Season
USACE contracting officials did not require one of the temporary roofing contractors to
submit an acceptable APP for approval before beginning the roofing mission. Temporary
roofing mission contractors are required to address the implementation of safety
requirements in their APPs before beginning work. However, one contractor did not
submit an approved APP until 38 days after the Hurricane Gustav disaster declaration and
33 days after it began repairing roofs.

USACE officials accepted the contractor’s APP in the interim because of the urgent need
for temporary roofing; however, the APP lacked sufficient detail. USACE officials
required the contractor to submit a revised APP. USACE safety officials reviewed
multiple APP submittals and found each to be insufficient. The safety officials noted
several common deficiencies and stated the plan did not specifically:
     establish lines of authority,
     identify subcontractors,
     show how the contractor planned to control its subcontractors,
     address the responsibilities of the subcontractors,
     clearly articulate job site training,
     address safety meetings, and
     articulate how safety deficiencies would be tracked or logged.

USACE St. Paul District internal review officials observed the impact these APP
deficiencies were having on the implementation of safety at temporary roofing sites.
Several workcrews were operating without following the safety guidelines. Figure 3
shows a workcrew preparing to install temporary roofing on a home affected by
Hurricane Ike without using the proper safety equipment.




                                            9
        Source: U.S. Army Corps of Engineers

        Figure 3. USACE Roofing Contractors Working on a Two-Story Building
        Without Any Fall-Protection Equipment

USACE St. Paul District officials eventually withheld 5 percent from the contractor’s
second and third payment requests. USACE safety officials found deficiencies in the
final APP submittal; however, the officials recommended approval of the APP because
the Hurricane Gustav temporary roofing mission was nearing completion. USACE
St. Paul District officials paid the two previously withheld payments to the contractor in
the fourth payment request.

USACE officials stated that having an approved APP does not minimize safety risks and
hazards if the APP is not sufficiently applied to subcontractors and workcrews. The
contractors working on the Hurricane Gustav temporary roofing mission had multiple
recurring safety violations even with an approved APP. For example, the USACE
St. Paul District Safety Officer stated that one contractor did an outstanding job of
preparing and submitting an acceptable APP for approval during the Hurricane Gustav
temporary roofing mission. However, USACE internal review officials reported safety
violations by that contractor during the temporary roofing mission.

USACE Galveston District officials stated that all active contractors had safety violations
during the Hurricane Ike temporary roofing mission. USACE internal review officials
noted in their reports that some of the contractor workcrew chiefs believed they were not
required to follow the safety requirements on roofs, indicating that the contractor did not
sufficiently apply the APP to their subcontractors and workcrews. USACE should
require all contractors to submit an acceptable APP for approval before work begins on a
temporary roofing mission and to apply the approved APP to all subcontractors.



                                               10
USACE’s Planned Corrective Action for APP Deficiencies
A USACE subject matter expert on the temporary roofing mission discussed potential
changes to the temporary roofing mission’s standard operating procedures and the new
ACI contracts that will help correct safety problems for the 2009 hurricane season. The
USACE subject matter expert stated that extensive layering of subcontractors leads to the
risk of miscommunication and requires more effort when implementing the contract.
USACE officials have 17 new contracts in process for the 2009 hurricane season. The
new contracts will require the contractors to complete a maximum of 300 roofs per day
compared with a maximum of 500 roofs per day in the 2006 ACI contract. In addition,
the 2009 ACI contracts will require three to four contractors per affected area, compared
with the two contractors specified in the 2006 ACI contracts. Finally, prime contractors
will be required to perform 30 percent of temporary roofing work. All of these changes
are designed to decrease layering of subcontractors and improve communication with all
parties involved with the temporary roofing mission. USACE officials planned changes
for the 2009 hurricane season will increase the number of contractors available to
perform the temporary roofing mission and give USACE the flexibility to direct RoEs to
those contractors who perform within the contract requirements, including compliance
with safety requirements.

Administration of the Temporary Power Mission Contract
The USACE contracting officials involved with the administration of the 2008 temporary
power mission were unfamiliar with the ACI Emergency Power Contract. The USACE
Pittsburgh District maintains the emergency power contract, including documentation
associated with the award process, modifications to the contract, and task orders under
the contract. Pittsburgh District officials issued a task order under the emergency power
contract to transfer contracting authority to the districts in charge of disaster recovery for
the 2008 hurricane season. Contracting officers at the districts in charge of disaster
recovery missions handle the contracting actions associated with the temporary power
mission following the transfer of authority.

Consistency of Contract Actions for the Temporary Power Mission
During the 2008 hurricane season, the contracting officials at the districts in charge of
disaster response did not handle the contracting actions associated with the temporary
power mission as the contract directed. Contracting officials from the Philadelphia and
Memphis Districts performed contracting functions for the districts in charge because
these offices were more familiar with the ACI Emergency Power Contract. However,
even though these offices were more familiar with the contracts, they did not maintain
adequate contract documentation. Documentation for taskers and necessary signatures on
tasker forms were missing from the contract files maintained at the districts in charge of
disaster recovery missions. Following the completion of the temporary power mission
for Hurricane Gustav, Memphis District contracting officials transferred the contracting
files back to the district in charge, St. Paul. The documentation maintained by St. Paul
District officials was incomplete because revisions, modifications, and cancellations were
not noted separately, and often the initial tasker forms were not included in the contract
files.


                                             11
USACE officials stated that contracting officials at districts in charge of disaster response
missions for the 2008 hurricane season were unfamiliar with the terms and conditions of
the ACI Emergency Power Contract. According to emergency management and
contracting officials the terms and conditions of the ACI Emergency Power Contract can
be difficult to understand and implement efficiently and effectively for contracting
officers with no previous ACI experience. USACE Pittsburgh District stated that if
needed the Pittsburgh District contracting officials can provide contracting assistance
because of their knowledge and familiarity with the contract. USACE officials stated that
contracting officers with expertise on the ACI contracts could provide the necessary
action for a mission that requires an immediate and comprehensive response. Without
this expertise, contracting officers at districts in charge of disaster response missions may
hesitate to take action in the future or incorrectly perform the functions causing delays or
incomplete documentation. USACE should instruct the districts in charge of the
emergency power contracts to develop and maintain adequate documentation.

USACE officials also use ACI contracts for the ice and water disaster relief missions, and
the contracting duties are consolidated in two districts per mission. These two districts
share mission responsibilities for each disaster, allowing the officials in those districts to
be both familiar and comfortable with the contracting requirements so the mission can be
executed consistently. One district is primarily responsible for the execution of the
mission, with the second district assisting. The primary responsibility rotates between the
two districts yearly. USACE officials should consider consolidating the administration of
the ACI Emergency Power Contract into two USACE districts, as they have with the ice
and water ACI contracts, to eliminate confusion and to develop and maintain adequate
documentation.

USACE’s Planned Corrective Action for the Temporary Power Mission
Contract Administration Issues
USACE is aware of the risks it runs by having contracting officers use a contract they are
unfamiliar with. USACE is considering establishing a centralized contracting team to
consolidate all contracting duties for the ACI Emergency Power Contract. If USACE
consolidates all contracting duties associated with the ACI Emergency Power Contract,
the risks of delays and incomplete documentation should be reduced. USACE can
provide a better coordinated and more consistent emergency power response with a
centralized contracting team.




                                             12
Conclusion
Based on our limited review of the USACE’s temporary roofing and temporary power
missions for the 2008 hurricane season, we concluded that components of both missions
need improvements. All USACE QA personnel performing preliminary and final
inspections should be adequately trained and have engineering backgrounds in order to
accurately estimate and verify amounts of material needed for the temporary roofing
mission. USACE contracting officials should ensure that there is an approved APP
submitted and implemented by the contractor before work begins on the temporary
roofing mission. USACE needs to ensure complete contract documentation is developed
and maintained for the temporary power mission. In addition, the temporary power
mission award and administration functions should be further evaluated to determine
whether centrally locating the contract administration would improve accountability and
efficiency in responding to disasters.

Recommendations, Management Comments, and Our
Response
We recommend that Commander, U.S. Army Corps of Engineers:

   1. Adequately train all personnel executing the quality assurance
      responsibilities for the temporary roofing mission.

Management Comments
USACE agreed with the recommendation and stated that it is implementing procedures to
improve training for roofing QA personnel. Training will be standardized and provided
by designated roofing QA trainers to provide consistency. USACE will require a pre-
deployment math test to ensure all personnel, both volunteers and contractors, are capable
of performing the job requirements. Additionally, USACE rewrote the duty descriptions
to reflect the actual duties of a roofing QA and for the RoE collection process on the
temporary roofing mission to allow QA personnel to focus on their primary duties of
quality assurance.

Our Response
The comments were responsive to the recommendation and no additional comments are
required.

   2. Require temporary roofing contractors to have an accepted and properly
      implemented accident prevention plan before they perform the temporary
      roofing mission, and to comply with the plan’s safety requirements.

Management Comments
USACE agreed with the recommendation and stated that USACE will review and
approve the contractor’s APP prior to commencement of any roofing work. Roofing QA
personnel will be trained in fall protection standards and will understand their authority to


                                             13
stop work if safety standards are not followed. USACE will have the flexibility to
terminate contractors for repeat safety violations due to the reduced production of each
roofing contractor and increased number of contractors involved.

Our Response
The comments were responsive to the recommendation and no additional comments are
required.

   3. Instruct districts in charge of the emergency power contracts to develop and
      retain adequate contract documentation.

Management Comments
USACE agreed with the recommendation and stated that USACE Emergency
Management staff will remind supported districts to develop and retain adequate contract
documentation. USACE revised training to ensure that documentation requirements are
known and met, and that adequate contract documentation is retained.

Our Response
The comments were responsive to the recommendation and no additional comments are
required.

   4. Consider consolidating the award and administration of the temporary
      power mission’s Advance Contracting Initiative contract at two regional or
      district locations.

Management Comments
USACE agreed with the recommendation and stated that a proposal has been made to
have the Pittsburgh District serve as the sole agent for all missions, including post
declaration. USACE will continue to consider consolidating the award and
administration of the temporary power mission’s contract at two locations.

Our Response
The comments were responsive to the recommendation and no additional comments are
required.




                                            14
Appendix A. Scope and Methodology
We conducted this performance audit from October 2008 through July 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We conducted this audit based on the commitment of the President’s Council on Integrity
and Efficiency (now known as the Council of Inspectors General on Integrity and
Efficiency) to take a proactive approach in reviewing expenditures related to disaster
relief efforts. We met and held discussions with officials at USACE Headquarters,
Washington, D.C.; USACE Galveston District office, Galveston, Texas; USACE St. Paul
District office, St. Paul, Minnesota; USACE Mobile District office, Mobile, Alabama;
and USACE Pittsburgh District office, Pittsburgh, Pennsylvania.

We reviewed Federal, DOD, and USACE criteria pertaining to our objectives:

      The Robert T. Stafford Disaster Relief and Emergency Assistance Act, as
       amended, and Related Authorities, FEMA 592, June 2007;
      The National Response Framework, January 2008;
      Emergency Support Function #3, “Public Works for Engineering Annex,”
       January 2008;
      Emergency Support Function #6, “Mass Care, Emergency Assistance, Housing,
       and Human Services Annex,” January 2008;
      Emergency Support Function #12, “Energy Annex,” January 2008;
      Federal Acquisition Regulation, Part 26, Subpart 26.2, “Disaster or Emergency
       Assistance Activities”;
      Federal Acquisition Regulation 52.216-1, “Type of Contract”;
      Army Federal Acquisition Regulation Supplement, Subpart 5117.2, “Options”;
       and
      Emergency Manual 385-1-1, “Safety and Health Requirements Manual,”
       September 15, 2008.

We held discussions with USACE contracting officials regarding the award and
administration of the temporary roofing contracts used during the 2008 hurricane season.
We reviewed documentation on both the award and administration process for the
contracts. We discussed quality assurance and safety problems identified during our
review with USACE emergency management personnel, safety officials, and mission
management representatives. We reviewed USACE internal review reports on the
temporary roofing mission and discussed the issues with district officials. We also met
with Defense Contract Audit Agency officials and discussed their observations of



                                           15
USACE’s temporary roofing mission. We determined that a problem existed with the
training of quality assurance personnel but we did not determine the extent of the
problem. Due to time constraints, we did not examine the temporary roofing RoEs to
verify the estimates or calculations of the USACE QA inspectors or the eligibility of
applicants for temporary roofing.

We held discussions with USACE contracting officials regarding the award and
administration of the temporary power contract used during the 2008 hurricane season.
We reviewed documentation on both the award and administration of the contract. We
discussed missing documentation and the current administration procedures with USACE
contracting officials and emergency management personnel.

We obtained information related to USACE’s implementation of recommendations from
previous DOD IG reports: D-2008-037, “U.S. Army Corps of Engineers Administration
of Emergency Temporary Roofing Repair Contracts,” December 20, 2007, and D-2007-
038, “The U.S. Army Corps of Engineers’ ‘Operation Blue Roof’ Project in Response to
Hurricane Katrina,” December 22, 2006.

Based on our initial review, we divided the project into two subprojects. Project D2009-
D000CG-0127.000 is limited to the review of USACE’s temporary roofing and
temporary power response to the 2008 hurricane season for Hurricanes Gustav and Ike.
We limited our scope to the administration of both the temporary roofing mission and the
temporary power mission and not the award process. We obtained contract
documentation on the award process for both the temporary roofing mission and the
temporary power mission but focused our review on the administration of the contracts,
with which we identified problems. We issued Report No. D-2009-103, "The U.S. Army
Corps of Engineers Ice and Water Response to the 2008 Hurricane Season," on
September 18, 2009 to address the USACE ice and water missions. The following table
shows the contracts we reviewed for the 2008 hurricane season for the temporary roofing
missions, temporary power missions, and administrative assistance.




                                           16
        Contracts Reviewed for Temporary Roofing, Temporary Power, and
                            Administrative Assistance
      Contract           District        District                      Contractor
                        Awarding      Administering
                       the Contract    the Contract
                               Temporary Roofing Contracts
W91278-06-D-0028      Mobile,       St. Paul,      Crown Roofing Services, Inc.
                      Alabama       Minnesota
W91278-06-D-0047      Mobile,       St. Paul,      S&M and Associates, Inc.
                      Alabama       Minnesota
W91278-06-D-0031      Mobile,       Galveston,     Crown Roofing Services, Inc.
                      Alabama       Texas
W91278-06-D-0056      Mobile,       Galveston,     Acme Roofing & Sheet Metal Co.,
                      Alabama       Texas          Inc./Industrial Technical Services, LLC
                                                   Joint Venture
W912HY-09-D-0001      Fort Worth,   Galveston,     American Plastic, Inc.
                      Texas         Texas
W912HY-09-D-0002      Fort Worth,   Galveston,     All American Brothers Co., LLC
                      Texas         Texas
                                  Temporary Power Contract
DACW59-03-D-0001      Pittsburgh,     Philadelphia,  IAP Worldwide Services
                      Pennsylvania Pennsylvania,
                                      and Memphis,
                                      Tennessee
                            Administrative Assistance Contracts
W912HY-08-D-0005      Galveston,     Galveston,       Healthy Resources Enterprises, Inc.
                      Texas          Texas
W912HY-08-D-0006      Galveston,     Galveston,       Healthy Resources Enterprises, Inc.
                      Texas          Texas




Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.




                                             17
Appendix B. Prior Coverage

During the last 5 years, the Government Accountability Office (GAO), DOD IG, the
Army Audit Agency, the Naval Audit Service, and the Air Force Audit Agency have
issued 38 reports discussing hurricane response by the Department of Defense.
Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.
Unrestricted DOD IG reports can be accessed at http://www.dodig.mil/audit/reports.
Unrestricted Army reports can be accessed from .mil and gao.gov domains over the
Internet at https://www.aaa.army.mil/. Naval Audit Service reports are unavailable over
the Internet. Air Force Audit Agency reports can be accessed from .mil domains over the
Internet at https://wwwd.my.af.mil/afknprod/ASPs/cop/Entry.asp?Filter=OO by those
with Common Access Cards who create user accounts.

GAO

GAO Report No. GAO-08-1120, “Disaster Recovery: Past Experiences Offer Insight for
Recovering from Hurricanes Ike and Gustav and Other Recent Natural Disasters,”
September 26, 2008

GAO Report No. GAO-08-596, “Human Capital: Corps of Engineers Needs to Update
Its Workforce Planning Process to More Effectively Address Its Current and Future
Workforce Needs,” May 7, 2008

GAO Report No. GAO-07-205, “Hurricane Katrina: Agency Contracting Data Should
Be More Complete Regarding Subcontracting Opportunities for Small Businesses,”
March 1, 2007

GAO Report No. GAO-06-903, “Coast Guard: Observations on the Preparation,
Response, and Recovery Missions Related to Hurricane Katrina,” July 31, 2006

GAO Report No. GAO-06-643, “Hurricane Katrina: Better Plans and Exercises Needed
to Guide the Military’s Response to Catastrophic Natural Disasters,” May 15, 2006

GAO Report No. GAO-06-454, “Hurricane Katrina: Army Corps of Engineers Contract
for Mississippi Classrooms,” May 1, 2006

DOD IG

DOD IG Report No. D-2009-103, “The U.S. Army Corps of Engineers Ice and Water
Response to the 2008 Hurricane Season,” September 18, 2009

DOD IG Report No. D-2008-130, “Approval Process, Tracking, and Financial
Management of DoD Disaster Relief Efforts,” September 17, 2008

                                          18
DOD IG Report No. D-2008-097, “Hurricane Relief Effort Costs on the Navy
Construction Capabilities Contract,” May 23, 2008

DOD IG Report No. D-2008-080, “DoD Accounting to Support DoD Personnel During
Times of Civil Emergency,” April 25, 2008

DOD IG Report No. D-2008-037, “U.S. Army Corps of Engineers Administration of
Emergency Temporary Roofing Repair Contracts,” December 20, 2007

DOD IG Report No. D-2007-121, “Emergency Supplemental Appropriations for DoD
Needs Arising From Hurricane Katrina at Selected DoD Components,”
September 12, 2007

DOD IG Report No. D-2007-118, “Contract Administration of the Ice Delivery Contract
Between International American Products, Worldwide Services and the U.S. Army Corps
of Engineers During the Hurricane Katrina Recovery Effort,” August 24, 2007

DOD IG Report No. D-2007-081, “Financial Management of Hurricane Katrina Relief
Efforts at the U.S. Army Corps of Engineers,” April 6, 2007

DOD IG Report No. D-2007-055, “Contract Administration of the Water Delivery
Contract Between the Lipsey Mountain Spring Water Company and the United States
Army Corps of Engineers,” February 5, 2007

DOD IG Report No. D-2007-038, “U.S. Army Corps of Engineers’ ‘Operation Blue
Roof’ Project in Response to Hurricane Katrina,” December 22, 2006

DOD IG Report No. D-2007-002, “Logistics: Use of DoD Resources Supporting
Hurricane Katrina Disaster,” October 16, 2006

DOD IG Report No. D-2006-118, “Financial Management: Financial Management of
Hurricane Katrina Relief Efforts at Selected DoD Components,” September 27, 2006

DOD IG Report No. D-2006-111, “Acquisition: Expanded Micro-Purchase Authority for
Purchase Card Transactions Related to Hurricane Katrina,” September 27, 2006

DOD IG Report No. D-2006-116, “Acquisition: Ice Delivery Contracts Between
International American Products, Worldwide Services and the U.S. Army Corps of
Engineers,” September 26, 2006

DOD IG Report No. D-2006-109, “Acquisition: Response to Congressional Requests on
the Water Delivery Contract Between the Lipsey Mountain Spring Water Company and
the United States Army Corps of Engineers,” August 29, 2006




                                         19
Army

Army Audit Agency Report No. A-2008-0192-FFD, “Demolition Contracts: U.S. Army
Corps of Engineers,” July 24, 2008

Army Audit Agency Report No. A-2007-0162-FFD, “Contract Data Reporting for
Hurricane Operations, U.S. Army Corps of Engineers, Washington, DC,” June 28, 2007

Army Audit Agency Report No. A-2007-0135-FFD, “Army Fund Accountability for
Hurricane Katrina Relief Efforts,” June 12, 2007

Army Audit Agency Report No. A-2007-0016-FFD, “Debris Removal Contracts: U.S.
Army Corps of Engineers,” November 9, 2006

Army Audit Agency Report No. A-2006-0198-FFD, “Contracts for the Hurricane Season
Protection Systems in New Orleans: U.S. Army Corps of Engineers, New Orleans
District—Task Force Guardian,” August 22, 2006

Navy

Naval Audit Service Report No. N2008-0004, “Controls Over Shipbuilding and
Conversion, Navy Funds Hurricane Relief Efforts,” October 29, 2007

Naval Audit Service Report No. N2007-0039, “Controls and Accountability Over
Medical Supplies and Equipment - Hurricane Relief Efforts,” June 1, 2007

Naval Audit Service Report No. N2007-0034, “Contractor Support Services in Support of
Hurricane Relief Efforts,” May 22, 2007

Naval Audit Service Report No. N2007-0021, “Hurricane Relief Funds for Military
Family Housing Construction at Gulfport and Stennis Space Center, Mississippi,”
March 27, 2007

Naval Audit Service Report No. N2007-0016, “Information Systems Restoration and
Data Recovery Related to Hurricane Katrina,” February 23, 2007

Naval Audit Service Report No. N2007-0009, “Department of the Navy’s Use of
Hurricane Katrina Relief Funds,” January 3, 2007

Naval Audit Service Report No. N2006-0047, “Cash Accountability of Department of the
Navy Disbursing Officers for Hurricane Katrina Relief Funds,” September 22, 2006

Naval Audit Service Report No. N2006-0042, “Department of the Navy’s Government
Commercial Purchase Cards used for Hurricane Relief Efforts,” August 25, 2006



                                         20
Naval Audit Service Report No. N2006-0015, “Chartered Cruise Ships,” February 16,
2006

Air Force

Air Force Audit Agency Report No. F2008-0007-FD1000, “Hurricane Disaster
Planning,” June 4, 2008

Air Force Audit Agency Report No. F2007-0008-FD1000, “Hurricane Katrina
Supplemental Funds Management,” April 23, 2007

Air Force Audit Agency Report No. F2007-0003-FB1000, “Hurricane Katrina Federal
Emergency Management Agency Reimbursements,” November 20, 2006




                                         21
U.S. Army Corps of Engineers Comments




                  Click to add JPEG file




                                 22
Click to add JPEG file




               23
Click to add JPEG file




               24
